Supreme Cour.,
FILED

JUL 13 ZLLi
OFFICE OF THE CL !•'"<

No. 21-

SUPREME COURT OF THE UNITED STATES OF AMERICA

George C. Vann
Petitioner,
vs.

Roane County Commission, West Virginia, Et.AI

PETITION FOR A WRIT OF CERTIORARI

Revised Pursuant To Rule 14,14.5
George C. Vann, Pro Se
12926 Couples Place
Waldorf, Maryland 20601
(240) 412- 8562
GeoraeGCV962@AOL.com
Roane County Commission, West Virginia, Et. Al.
Charles B. White, Jr. Commission Clerk
By Joshua W. Downey, Roane County Prosecuting
Attorney
200 Main Street
Spencer, West Virginia 25276

QUESTION PRESENTED FOR REVIEW

To preserve the Right of the Fifth and Fourteenth of the Constitution of the United
States should a party be denied the Right to Question Jurisdiction, Accountability and
Disclosure of the Subject Matter in an Alleged Estate with conflicting Interests among
the independent review of the alleged estate by the operating judiciary.

Parties to the Case As Name in the Case

Charles White, Individually and as the Clerk of the Roane County Commission, W.V.

Richard Frum, Roane County Fiduciary Commissioner

Andrew Patton, Esquire Individually and as Counsel For Susan L Brooks

Gregory Elliott, Esquire Individually and as Legally Counsel for George C. Vann, Heir,
Beneficiary and Successor Trustee for the The George Anderson Vann, Jr. Revocable
Trust
Susan L Brooks, Individually and as Personal Representative for the Alleged
Estate(lnstate) for George Anderson Vann, Jr.
Darlene Hunt, Individually and as an heir and beneficiary to the alleged estate/ trust
Mary Toohney, Individually and as an heir and beneficiary to the alleged estate/trust

Table of Contents, Authorities and Citations
14.1. (e)

I.) Circuit of Roane County, West Virginia dated July 3, 2019
Dated 9/3/2020, Received 9/26/20^7?^(?jifjf*} f\p

*

Dismissal Order

%.) West Virginia Supreme Court Of Appeals Administrative Order dated May 5,
2020, Order dated October 16, 2020, Order dated February 11,2021
Dismissal Order dated April 16,2021
• V- ft

ii.)N/A

iii.) N/A

iv.) The fifth and fourteenth amendments of the United States Constitution. Also
26 U.S. Code and sub parts A as 641-646, A, B, C„D,E and F. Maryland and West
Virginia W.Va Tax Code R. 110-21 -18,19, Maryland Tax Code 3-102,3-401, W.Va code
61 -2-29(b)(h)1-4, 2020, Chapter 61, Article 2, 61-2-296, W.Va. Code 9-6-1(2020)

14..f.(i) Fifth and Fourteenth Amendments) of the U. .S. Constitution , Freedom of
Information Act, Motion Filed To Question Jurisdiction Issues (lack of capacity to give
informed consent because of health and non disclosure of missing money, insolvency
of the estate and questionable insurance policies.

14.f.(ii)N/A

14.1. (d) Orders and Administrative Reviews

Motion(s) Presented

I.) Motion To Perpetuate Testimony
II.) Motion To Question Jurisdiction, Conflicting Representation and Disclosure
III.) Motion To Disclosure and Removal of Personal Personal Representative
IV.) Motion To Dismiss As Filed by Roane County Commission, Et. Al
V.) Motion To Recuse Circuit Court Anita Ashley
VI. Motion To Rescue Tim Armstead
VII.) Motion To Stay Order(s)

Order(s)
Probate Court Roane County Commission Order to Produce Records
Circuit Court for Roane County, West Virginia Order September 3,2020
West Virginia Supreme Court of Appeal Orders (Administrative Order dated May 6,
2020, April 16, 2021 Order Dismissing An Appeal to the West Virginia Supreme Court of
Appeals

14.g.) This case was after multiple hearings and cancellations was finally put on a
probate docket for a hearing of which the Petitioner filed timely a motion which
challenged jurisdiction, conflicting interests and disclosure of necessary information to
examine and settle an estate(lnstate) and trusts relating to the decedent. Due Process
was not available at the probate level, the circuit court level and the appellate court
level (because of conflicting interests). Judicial influence and conflict prevented Due
Process to the Petitioner. Necessary federal and state(s) obligations were also impeded
by such conduct.
A sick and elderly subjected to undue influence as witness with conflicting
jurisprudence. Judge in this case at the time of the sickness owned and sold insurance
of which she preventing disclosure, conflicting jurisprudence and due process. Recusal
was requested at the circuit court and state appellate court level.

14.h.) The Petitioner has sought legal address through local probate, circuit and
appellate court(s) but find based on the evidence and fact(s) related to the case there
are multiple layers of conflicting duties and activity which prevent the Petitioner from
gaining access to necessary information to establish taxation (both federal and
states(intra-related) level. Jurisdiction is also questioned because of ill health and care
with essentially no residual meaning of the decadent’s life at the time of an alleged Will
preparation and execution. The Circuit Court judge at the circuit court level did not
disclose and rescue herself when requested by the Petitioner.was a full time manager/
producer of her own agency which sold insurance related products at the time of Will
execution with her husband who went to work for Executive Level of state government.

Statement of the Case
This case is about a sick and elderly man subject to care and activities by a selected
few to capitalize on the wealth he created during his lifetime. A motion put before a
probate court did not get addressed so an appeal was sought at the circuit court level.
A petition to perpetuate testimony prior to death was placed by Clerk of Court on a
Inactive stet docket. A new judge was assigned to the case who happened to be a full
time owner/agent/producer of an insurance business with her husband. He went to
work as the director of legislative affairs for the Governor. She became a circuit court
judge within an approximate year and sold the full time insurance business to family
members.
The petitioner has been attempting to gain access to records which show insurance
policies from sale, to the amount and who received the benefit from insured estate by
caregivers.

Recusal was requested of the circuit court judge as well as the appellate court judge
for conflicting jurisprudence and the potential of conflict of interests. Both judicial level
reviews have been dismissed and stricken from the record. The notice of Insolvency
has been filed. Gainfully having access to financial and insurance disclosure^) have
not happened in this case. Jurisdiction is questionable as most of assets were in trust
and not an estate because of illness of the decedent being referred by medical staff for
hospice care. Delayed referrals resulted in lack of informed consent to structure and
execute a bona fide will. What assets are left should have been treated as instate not
subjected to probate actions.. This is where jurisdictional issues are raised in a motion
before all three court(s) Lack of capacity resulting in discretionary jurisdiction over the
subject matter.

Respectfully Submitted By,

/f

TT*
George C. Vann, Petitioner

Case Law Citations for Case Vann v. Roane County Commission, Et.AI
Carpenter v. United States
Ford Motor Company v. Montana Eight District Court
Bristol Meyers Squibb v. Supreme Court of California
Caperton v. A.T. Massey Coal Co., 556 U.S. 868
Trump v. Vance, 19-635
10-715, Trump v. Mazars, USA, LLP
Morrissey v. Brewer, 408 U.S. 471,481,1972
Appendix A
Administrative Order May 6,06/20

